           Office of Inspector General




July 20, 2004

KENNETH S. MCARTHUR
MANAGER, SALT LAKE CITY DISTRICT

ORMER ROGERS
MANAGER, MID-AMERICA DISTRICT

SUBJECT: 	 Audit Report – Efforts to Prevent Accidents, Injuries, and Illnesses in
           the Mid-America and Salt Lake City Performance Clusters (Western
           Area) (Report Number HM-AR-04-010)

This report presents the results of our audit of the Mid-America and Salt Lake City
Performance Clusters’ efforts to prevent accidents, injuries, and illnesses in the
Western Area (Project Number 03YG011LH008). Our overall objective was to
determine whether the performance clusters were reducing the number of accidents,
injuries, and illnesses through prevention methods. This report is the sixth in a
series of 7 reports we will issue on accident prevention initiatives in 6 areas and
12 performance clusters. The seventh report will address issues with nationwide
impact and will provide the results of our best practice review of safety issues.

The Mid-America and Salt Lake City Performance Clusters had implemented
prevention initiatives that have the potential to become best practices in reducing
accidents, injuries, and illnesses. However, we could not determine whether the
prevention initiatives reduced the number of accidents, injuries, and illnesses, or
whether the initiatives were implemented in a timely manner.

Although both performance clusters were accumulating and analyzing accident,
injury, and illness data for prevention initiatives, the Human Resources Information
Systems and the Risk Management Reporting System are antiquated and will be
replaced. Finally, in all six facilities we visited in the Mid-America and Salt Lake City
Performance Clusters, the reporting processes facilitated accurate reporting of
accidents, injuries, and illnesses.

Further, in the Salt Lake City Performance Cluster, we noted opportunities for
improvement in safety, training, and resources. We also identified an issue
regarding carrier safety, and the performance cluster took corrective action.



   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We made two recommendations to help management in the Salt Lake City
Performance Cluster improve its accident prevention programs. Management
agreed with the recommendations and has initiatives completed or planned
addressing the issues in this report. Management’s comments and our evaluation of
these comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Chris Nicoloff, Director, Human Capital, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: 	 Suzanne F. Medvidovich
      John A. Rapp
      DeWitt O. Harris
      Sylvester Black
      Samuel M. Pulcrano
      Joseph K. Moore
Efforts to Prevent Accidents, Injuries,                     HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)



                                  TABLE OF CONTENTS

Executive Summary
                                              i

Part I

Introduction                                                    1


   Background                                                  1

   Objectives, Scope, and Methodology                          2

   Prior Audit Coverage                                        3


Part II

Audit Results                                                   4


   Accident Prevention Initiatives                             4


   Effectiveness and Timeliness of Prevention Initiatives      5

    Management’s Comments                                      7

    Opportunity for Improvement – Safety Training              7

   Recommendation                                              8
   Management’s Comments                                       8

   Evaluation of Management’s Comments                         8

    Opportunity for Improvement – Resources                    8

   Recommendation                                              9
   Management’s Comments                                       9

   Evaluation of Management’s Comments                         9


   Accident Reporting Systems                                  9


   Reporting Processes                                         11 


   Carriers Exposed to Unnecessary Risks                       12 

    Corrective Action Taken                                    12 


Appendix A. Abbreviations                                      13 


Appendix B. Scope and Methodology                              14 

Efforts to Prevent Accidents, Injuries,                                   HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)


Appendix C. Statistical Sampling and Projections for Review of Accident
            Reporting Processes in Mid-America Performance Cluster           16

Appendix D. Statistical Sampling for Review of Accident Reporting
            Processes in Salt Lake City Performance Cluster                  19

Appendix E. Management’s Comments                                            22
Efforts to Prevent Accidents, Injuries,                                              HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)

                                  EXECUTIVE SUMMARY
 Introduction 	                 This report presents the results of our self-initiated audit to
                                determine whether the Mid-America and Salt Lake City
                                Performance Clusters, located in the Western Area, were
                                reducing the number of accidents, injuries, and illnesses
                                through prevention initiatives.

 Results in Brief 	             The Mid-America and Salt Lake City Performance Clusters
                                have implemented prevention initiatives that could become
                                best practices in reducing accidents, injuries, and illnesses.
                                However, we could not determine whether the prevention
                                initiatives reduced the number of accidents, injuries, and
                                illnesses, or whether the initiatives were implemented in a
                                timely manner. This occurred because the measurement
                                tools in place did not allow safety personnel to track and
                                monitor the effectiveness of specific prevention initiatives.

                                Although both performance clusters were accumulating and
                                analyzing accident, injury, and illness data for prevention
                                initiatives, the Human Resources Information Systems and
                                the Risk Management Reporting System are antiquated and
                                will be replaced.

                                Postal Service Headquarters officials told us they were
                                addressing this issue at the headquarters level. We will
                                issue a summary report on the audit results for the six areas
                                visited. In that report, we may make a recommendation to
                                the Senior Vice President, Human Resources, regarding the
                                data systems.

                                In all six facilities we visited in the Mid-America and Salt
                                Lake City Performance Clusters, the reporting processes
                                used within the various functional areas facilitated the
                                accurate reporting of accidents, injuries, and illnesses.

                                Further, in the Salt Lake City Performance Cluster,
                                opportunities exist for improvement in the areas of
                                safety training and resources. We also identified an
                                issue regarding carrier safety, and the performance
                                cluster took corrective action.




                                                   i
Efforts to Prevent Accidents, Injuries,                                            HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)


 Summary of                     To improve the Salt Lake City Performance Cluster’s safety
 Recommendations                program, we recommended the Manager, Salt Lake City
                                District, require safety training for temporary supervisors;
                                and fill vacant positions where appropriate or consider other
                                alternatives, such as collateral duty assignments for existing
                                staff.

 Summary of                     Management agreed that although accident reductions in
 Management’s                   the Mid-America and Salt Lake City Performance Clusters
 Comments                       were realized, it was difficult to determine whether the
                                specific safety initiatives implemented were the reason for
                                improved performance.

                                Management also agreed that the Salt Lake City
                                Performance Cluster should require training for temporary
                                supervisors who serve for long periods. In addition,
                                management agreed that the Salt Lake City Performance
                                Cluster should provide sufficient personnel and support to
                                properly implement and administer the safety program.
                                They stated an Ad-Hoc Safety Manager position will remain
                                in effect until a permanent position is arranged.
                                Management’s comments, in their entirety, are included in
                                Appendix E of this report.

 Overall Evaluation of          Management’s actions taken or planned are responsive to
 Management’s                   the recommendations and should resolve the issues
 Comments                       identified in this report.




                                                   ii
Efforts to Prevent Accidents, Injuries,                                                                 HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)

                                            INTRODUCTION
    Background                      With responsibility for more than 38,000 facilities, major
                                    transportation networks, and universal delivery, the Postal
                                    Service faces significant challenges in the areas of health
                                    and safety. These include making the health and safety of
                                    Postal Service employees a priority, managing the
                                    associated costs and lost productivity in operations, and
                                    responding when accidents and injuries have an
                                    unfavorable impact on the workplace. In addition, the
                                    Postal Service must address citations and monetary
                                    penalties for noncompliance with the Occupational Safety
                                    and Health Administration (OSHA) standards.

                                    In its April 2002, Transformation Plan, the Postal Service
                                    stated that to meet its challenges and prepare for
                                    transformation, it would implement a number of strategies to
                                    “push business effectiveness and operational efficiency.”
                                    One of the strategies outlined was to reduce its workers’
                                    compensation costs. According to the Office of Workers’
                                    Compensation Programs’ (OWCP) chargeback1 reports, the
                                    Postal Service workers’ compensation costs have increased
                                    from $538 million to $822 million between chargeback years
                                    1997 and 2003.2

                                    The following table is a comparison of Postal Service-wide
                                    accidents3 and OSHA injuries and illnesses4 for fiscal
                                    years (FYs) 2002 and 2003, which shows decreases in
                                    four categories. In addition, total expenses in FY 2003
                                    decreased significantly.




1
  The OWCP’s chargeback system is the mechanism by which the Department of Labor annually bills the cost of
compensation for work-related injuries and deaths to employing agencies.
2
  The OWCP’s chargeback year is July 1 through June 30.
3
  The Postal Service considers accidents as all reportable and nonreportable incidents, including unadjudicated
occupational illness cases that cover certain kinds of injuries, illnesses, or damages. OSHA defines an accident
as any unplanned event that results in personal injury or property damage.
4
  OSHA defines an injury or illness as an abnormal condition or disorder. Injuries include, but are not limited to,
cuts, fractures, sprains, or amputations. Illnesses include both acute and chronic illnesses such as, but not
limited to, skin diseases, respiratory disorders, or poisoning.

                                                         1
Efforts to Prevent Accidents, Injuries,                                                               HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)


                                   Table 1. 	Comparison of Postal Service-Wide Accidents and OSHA Injuries
                                             and Illnesses, FYs 2002 through 2003

                                          Category                FY 2002                FY 2003
                                    Motor Vehicle                           23,404                 23,100
                                    Accidents
                                    Non-Motor Vehicle                       99,195                 93,251
                                    Accidents
                                    OSHA Injuries                           51,630                 46,317
                                    OSHA Illnesses                           6,972                  5,550
                                    Total Accident, Injury,        $1,652,449,865        $1,620,024,027
                                    Illness Expenses

                                   Source: Postal Service Web-Enabled Enterprise Information System (WebEIS).

                                   Postal Service Headquarters officials did not know
                                   specifically what was responsible for the reduction in
                                   accidents. They believed, however, it was the result of
                                   accident prevention initiatives.

                                   To determine why the number of accidents, injuries, and
                                   illnesses declined, we conducted a survey of accident
                                   prevention initiatives in the Postal Service’s Western
                                   New York and Baltimore Performance Clusters, located in
                                   the Northeast and Capital Metro Areas, respectively. Our
                                   results showed that accident prevention initiatives in each
                                   performance cluster were different and yielded contrasting
                                   results. We conducted this audit to determine whether
                                   similar situations existed in the Mid-America and Salt Lake
                                   City Performance Clusters. We did not audit the
                                   performance clusters’ overall safety programs. Our focus
                                   was on accident prevention initiatives at the locations we
                                   visited.

    Objectives, Scope,             Our overall objective was to determine whether the
    and Methodology                Mid-America and Salt Lake City Performance Clusters were
                                   reducing the number of accidents, injuries, and illnesses
                                   through prevention initiatives. Our four subobjectives were
                                   to determine whether:

                                        •	 The number of accidents and injuries was declining
                                           as a result of corrections to unsafe working
                                           conditions and practices.5

                                        •	 Corrective actions and/or prevention initiatives were
                                           made in a timely manner.

5
  Corrections to unsafe working conditions and practices were considered both corrective actions and prevention
initiatives. The purpose of this subobjective was to determine the effectiveness of prevention initiatives.

                                                          2
Efforts to Prevent Accidents, Injuries,                                             HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)


                                     •	 Data were being accumulated and analyzed for
                                        prevention initiatives.

                                     •	 Processes facilitated accurate reporting.

                                We discuss our scope and methodology in Appendix B.

 Prior Audit Coverage 	 In the Mid-America and Salt Lake City Performance
                        Clusters, we did not identify any prior audits or reviews
                        related to the objectives of this audit.




                                                   3
Efforts to Prevent Accidents, Injuries,                                                HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)

                                         AUDIT RESULTS
                                The Mid-America and Salt Lake City Performance Clusters
                                have implemented accident prevention initiatives. We could
                                not determine, however, whether the prevention initiatives
                                were reducing the number of accidents, injuries, and
                                illnesses, or whether the initiatives were implemented in a
                                timely manner.

                                Although the performance clusters were accumulating and
                                analyzing accident, injury, and illness data in two different
                                automated systems, the systems are antiquated and will be
                                replaced. Further, the overall reporting processes used
                                within the various functional areas facilitated accurate
                                reporting of accidents, injuries, and illnesses.

                                Finally, in the Salt Lake City Performance Cluster,
                                opportunities exist for improvement in the areas of safety
                                training and resources. We also identified an issue
                                regarding carrier safety, and the performance cluster took
                                corrective action.

 Accident Prevention 	          The Mid-America and Salt Lake City Performance Clusters’
 Initiatives	                   prevention initiatives have the potential to become best
                                practices in reducing accidents, injuries, and illnesses.
                                These initiatives could also help other performance clusters
                                to enhance their safety programs. For example, the
                                Mid-America Performance Cluster:

                                    •	    Developed a dog bite policy stating that the
                                          existence of a potential dog bite danger could result
                                          in the curtailment of deliveries to a group of
                                          customers (the whole block if applicable) until the
                                          danger was removed.

                                    •	    Issued “Stabilicers” to prevent slips, trips, and falls
                                          due to icy conditions. “Stabilicers” are rubber shoe
                                          covers with cleats, worn by letter carriers. Safety
                                          personnel advised that this product was effective in
                                          preventing slips, trips, and falls due to icy
                                          conditions.




                                                   4
Efforts to Prevent Accidents, Injuries,                                                         HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)


                                 The Salt Lake City Performance Cluster implemented the
                                 following prevention initiatives:

                                     •	 A Driver Observation Tracking Tool to identify
                                        infractions by drivers and help the safety office target
                                        the type of training needed for employees.

                                     •	 Created a binder called “Safety for All Seasons” that
                                        was given to those stations where safety staff had
                                        not visited. The binder provides uniform guidance on
                                        safety issues and contains information on accident
                                        prevention awareness projects.

    Effectiveness and            For FY 2002 through accounting period 12 in FY 2003, for
    Timeliness of                the Salt Lake City Performance Cluster, and FYs 2002 and
    Prevention Initiatives       2003 for the Mid-America Performance Cluster, we could
                                 not determine whether the performance clusters were
                                 reducing the number of accidents, injuries, and illnesses,
                                 through prevention initiatives, or whether prevention
                                 initiatives were implemented in a timely manner. We could
                                 not make this determination because the measurement
                                 tools in place did not allow safety personnel to:

                                     •    Track and monitor specific prevention initiatives.
                                     •    Document when initiatives were implemented.

                                 Some categories of accidents (slips, trips, falls, and lifts)
                                 had decreased in both performance clusters; however, the
                                 reasons for the decreases could not be determined. District
                                 safety personnel told us they did not think decreases in the
                                 number of accidents were related to specific prevention
                                 initiatives. In addition, they had not documented the
                                 implementation dates.

                                 Although both performance clusters have implemented
                                 several accident prevention initiatives, their numbers and
                                 frequency rates vary for OSHA injuries and illnesses and
                                 motor vehicle accidents. From FYs 2002 to 2003, the
                                 Mid-America and Salt Lake City OSHA injury and illness
                                 numbers, OSHA accident frequency rates, and motor
                                 vehicle accident frequency rates6 decreased. Salt Lake
6
 OSHA injury and illness and motor vehicle accident frequency rates are the number of accidents per
100 employees for a specific period. These rates provide measurements that make accident data comparable
between large and small facilities.



                                                    5
Efforts to Prevent Accidents, Injuries,                                                        HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)

                                 City’s motor vehicle accident numbers also decreased for
                                 the same period. Mid-America’s motor vehicle accident
                                 numbers, however, stayed about the same. The following
                                 table illustrates these changes.

                                 Table 2. 	OSHA Injury and Illness and Motor Vehicle Accident Numbers
                                           and Frequency Rates in the Mid-America and Salt Lake City
                                           Performance Clusters for FYs 2002 and 2003

                                    Performance
                                      Cluster                 Numbers          Average Accident Rates
                                                         FY 2002  FY 2003      FY 2002      FY 2003
                                  Mid-America
                                  OSHA Injury and           598         518           5.64        5.07
                                  Illness
                                  Motor Vehicle             308         306           7.17        6.95
                                  Salt Lake City
                                  OSHA Injury and           385         301           9.47        7.59
                                  Illness
                                  Motor Vehicle             243         190          22.85      17.52

                                 Source: Postal Service WebEIS.


                                 Postal Service policy7 stated that safety personnel are
                                 responsible for developing and monitoring a comprehensive
                                 safety and health program and analyzing accident, injury,
                                 and illness data so they can advise management on
                                 corrective actions. Policy8 also requires installations to
                                 develop methods to identify program needs for accident
                                 prevention. In addition, policy9 requires supervisors to
                                 implement written programs and action plans, monitor
                                 employees’ safety performance, and prevent operational
                                 safety accidents.

                                 Without implementation dates and adequate measurement
                                 tools, the Postal Service does not have reasonable
                                 assurance that prevention initiatives help the performance
                                 clusters reduce the number of accidents, injuries, and
                                 illnesses. To follow prudent business practices, Postal
                                 Service managers should evaluate whether prevention
                                 initiatives are accomplishing their goals and whether the
                                 resources expended are justified.

                                 Headquarters officials told us they are modifying the tool kit
                                 that safety managers use to assess their safety programs.
                                 The tool kit will include trend line charts to track prevention

7
  Employee and Labor Relations Manual 17.2, Section 813.31, February 2003.
8
  Employee and Labor Relations Manual 17.2, Section 821.32, February 2003.
9
  Supervisor’s Safety Handbook, Handbook EL-801, Chapter 1, Section 1-1, May 2001.



                                                     6
Efforts to Prevent Accidents, Injuries,                                                               HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)

                                   initiatives, and will also allow managers to enter the date
                                   initiatives are implemented. In a separate report, we will
                                   address the need for tracking and monitoring initiatives.10

                                   In determining the effectiveness and timeliness of
                                   prevention initiatives, we noted two opportunities for
                                   improvement in the areas of training and resources.

 Management’s                      Management agreed that although accident reductions in
 Comments                          the Mid-America and Salt Lake City Performance Clusters
                                   were realized, it was difficult to determine whether the
                                   specific safety initiatives implemented were the reasons for
                                   improved performance. They believed each cluster
                                   implemented programs based on periodic reports and
                                   queries that identified specific weaknesses. They stated,
                                   however, that unfortunately, neither cluster was able to
                                   provide dated reports or meeting minutes linking the
                                   weaknesses with the exact implementation date of an
                                   initiative and the related reduction. This shortcoming should
                                   be resolved once the clusters enter initiative starting and
                                   ending dates in their action plans in the safety toolkit.

 Opportunity for                   In the Salt Lake City Performance Cluster, temporary
 Improvement – Safety              supervisors11 were not receiving safety training. According
 Training                          to the District Safety Manager, at any given time,
                                   approximately 100 temporary supervisors are deployed in
                                   196 customer service facilities within the cluster. He said
                                   formal training is not provided to temporary supervisors
                                   because management does not know in advance when craft
                                   employees will become temporary supervisors, so it is
                                   difficult to plan safety training for them.

                                   Postal Service policy12 states that all supervisors must
                                   receive safety and health training in accordance with the
                                   curriculum established by the Safety Performance
                                   Management and Employee Development office. Local
                                   offices, districts, and headquarters provide this training.
                                   Policy13 also requires installations to develop methods to
                                   identify program needs for accident prevention.



10
   We will issue a summary report on the audit results for the six areas visited. 

11
   A temporary supervisor (also referred to as a 204B) is usually a craft employee who has been tasked to

temporarily perform duties of a supervisor. 

12
   Employee and Labor Relations Manual 17.2, Section 817.11, February 2003.
13
   Employee and Labor Relations Manual 17.2, Section 821.32, February 2003.



                                                       7
Efforts to Prevent Accidents, Injuries,                                                               HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)


                                   Supervisors must implement written programs and action
                                   plans, monitor employees’ safety performance, and prevent
                                   operational safety accidents.

                                   Without the necessary training, temporary supervisors may
                                   not develop methods to identify safety program needs for
                                   accident prevention. In addition, written programs, action
                                   plans, and the monitoring of employees’ safety performance
                                   may not be sufficient to prevent operational safety
                                   accidents.

 Recommendation                    We recommend the Manager, Salt Lake City District:

                                       1. Require safety training for temporary supervisors.

 Management’s                      Management agreed with our recommendation that the Salt
 Comments                          Lake City Performance Cluster require training for
                                   temporary supervisors who serve for long periods.
                                   Management stated they would fill vacant positions where
                                   appropriate and consider other alternatives such as
                                   collateral duty assignments.

 Evaluation of                     Management’s actions taken or planned are responsive to
 Management’s                      the recommendation and should resolve the issues
 Comments                          identified in this finding.

 Opportunity for                   Another opportunity for improvement in the Salt Lake City
 Improvement –                     Performance Cluster involves the level of staffing.
 Resources                         Specifically, the safety staff may not be sufficient to support
                                   an effective accident prevention program. This is the case
                                   because the District Safety Manager is required to perform
                                   full-time duties as the Injury Compensation Manager,14 in
                                   addition to his safety manager duties.

                                   The safety manager stated that because of staffing and
                                   budget constraints, the performance cluster does not have a
                                   position for an Injury Compensation Manager. He told us




14
   An Injury Compensation Manager is responsible for developing, coordinating, and monitoring activities related
to the workers’ compensation program throughout the performance cluster.



                                                       8
Efforts to Prevent Accidents, Injuries,                                                HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)


                                   that as a result, he spends about 75 percent of his time
                                   performing the duties of that position.

                                   Postal Service policy15 states that organizations must plan
                                   budgets and provide funds that support effective and
                                   comprehensive safety and health programs, and provide for
                                   sufficient personnel and support to properly implement and
                                   administer the programs.

                                   Because of the additional responsibilities and time needed
                                   for injury compensation duties, safety duties may not be
                                   receiving the required attention.

 Recommendation                    We recommend the Manager, Salt Lake City District:

                                        2. Fill vacant positions, where appropriate, and/or
                                           consider other alternatives such as collateral duty
                                           assignments to existing staff.

 Management’s                      Management agreed with our recommendation that the Salt
 Comments                          Lake City Performance Cluster provide sufficient personnel
                                   and support to properly implement and administer the safety
                                   program. They stated that an Ad Hoc Safety Manager
                                   position will remain in effect until a permanent position is
                                   arranged.

 Evaluation of                     Management’s actions taken or planned are responsive to
 Management’s                      the recommendation and should resolve the issues
 Comments                          identified in this finding.

 Accident Reporting                Both the Mid-America and Salt Lake Performance Clusters
 Systems                           were accumulating and analyzing accident, injury, and
                                   illness data in the Human Resources Information Systems
                                   (HRIS) and the Risk Management Reporting System
                                   (RMRS). However, headquarters personnel told us these
                                   systems are antiquated and will be replaced. Safety
                                   personnel at both performance clusters told us they were
                                   either not experiencing problems with the two systems, or
                                   were able to work around them.

                                   For example, the Mid-America Performance Cluster had
                                   implemented strategies for FY 2004 to analyze accident

15
     Employee and Labor Relations Manual 17.2, Section 818, February 2003.



                                                       9
Efforts to Prevent Accidents, Injuries,                                             HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)

                                 reporting data from the HRIS and the RMRS and reduce
                                 accidents. The strategies included the development and
                                 implementation of safety action plans based on accident
                                 experience, ongoing programs to address accident
                                 repeaters, safety program/performance reviews at targeted
                                 sites, safety observation teams, a safe driver award
                                 program in every driving unit, and vehicle accident reviews.

                                 The Salt Lake City Performance Cluster closely monitors
                                 employees as part of their accident repeater program, which
                                 focuses on employees having more than one accident in
                                 two consecutive years. When an employee is accident-free
                                 for a two-year period, the employee receives a letter of
                                 congratulations on his or her accomplishment.

                                 Also, based on data from the HRIS and RMRS, the Salt
                                 Lake City Performance Cluster developed an
                                 Action/Intervention Plan to reduce accidents. Specifically,
                                 based on three-year averages for each high-risk accident
                                 category, the performance cluster sets a 10-percent
                                 reduction target for the high-risk categories.

                                 Postal Service policy16 requires the safety offices
                                 responsible for facilities where accidents occurred to enter
                                 accident report information into HRIS. Postal Service
                                 policy17 also states that the analysis of accidents and
                                 injuries is vital to effective accident prevention programs
                                 and requires management to use reports and statistical
                                 analyses to identify and eliminate the principal causes of
                                 accidents and hazardous conditions. Postal Service
                                 policy18 further requires each business area that manages
                                 source data to identify an individual or organization
                                 responsible for developing standards and usage rules to
                                 ensure data integrity. The policy also states that the
                                 standards and rules must ensure that data are accurate,
                                 available, usable, and consistent with the data location and
                                 other business considerations.

                                 According to the headquarters Program Manager,
                                 Information Technology, Human Resources Portfolio, the
                                 Postal Service has developed the Injury Compensation
                                 Performance Analysis System, and a component of it will

16
   Employee and Labor Relations Manual 17.2, Section 821.123, February 2003.
17
   Employee and Labor Relations Manual 17.2, Section 821.31, February 2003.
18
   Management Instruction 860-2003-2, Administrative Support, March 6, 2003.



                                                    10
Efforts to Prevent Accidents, Injuries,                                                               HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)

                                   replace HRIS and the RMRS. The manager also stated the
                                   system is scheduled for implementation late in calendar
                                   year 2004. We will address this issue in a separate report.

 Reporting Processes 	 In all six facilities we visited in the Mid-America and Salt
                       Lake City Performance Clusters, the overall reporting
                       processes used within the various functional areas
                       facilitated the accurate reporting of accidents, injuries, and
                       illnesses.

                                   We used a statistical sample to project the accuracy of the
                                   Mid-America Performance data in HRIS, and the
                                   completeness of accident report forms19 for FY 2002 and
                                   the first 11 accounting periods of FY 2003. We projected
                                   that almost all of the information on the forms in the
                                   Mid-America Performance Cluster were contained in the
                                   system, and the forms were complete (see Appendix C).

                                   We also used a statistical sample to review the accuracy
                                   of the Salt Lake City data in HRIS, and the completeness
                                   of the accident report forms for FY 2002 and the first
                                   11 accounting periods of FY 2003. The sample did not
                                   support a statistical projection; however, our tests of the
                                   data indicated the data in HRIS were reasonably reliable,
                                   and the forms were complete (see Appendix D).

                                   Postal Service policy20 requires supervisors to fully
                                   complete accident reports by including preventive action
                                   codes21 and descriptions of accident prevention efforts.
                                   The policy also requires managers to review each accident
                                   report for accuracy and conduct a follow-up assessment to
                                   ensure that action was taken to prevent similar occurrences.
                                   In addition, supervisors and managers are required to sign
                                   the report as proof they have reviewed it. Further, the
                                   policy22 requires the safety officer to enter the accident
                                   report information into HRIS.

                                   We believe the accident reporting process was accurate
                                   because supervisors and managers had received the safety

19
   Postal Service Form 1769, Accident Report, was used to report accidents. The instructions on the form
required it to be completed for all accidents, regardless of the extent of injury or amount of damage. This
included all first aid injury cases, both reportable and nonreportable.
20
   Employee and Labor Relations Manual 17.2, Section 821.13, February 2003.
21
   Preventive action codes describe the action taken to eliminate or reduce the accident cause(s) and prevent
similar accidents.
22
   Employee and Labor Relations Manual 17.2, Section 821.12, February 2003.



                                                       11
Efforts to Prevent Accidents, Injuries,                                        HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)

                                training required by the performance clusters and had
                                communicated the accident reporting process to employees
                                through safety talks and posters.




                                                  12
Efforts to Prevent Accidents, Injuries,                         HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)


                           APPENDIX A. ABBREVIATIONS
FY              Fiscal Year
HRIS            Human Resources Information Systems
OSHA            Occupational Safety and Health Administration
OWCP            Office of Workers’ Compensation Programs
RMRS            Risk Management Reporting System
WebEIS          Web-Enabled Enterprise Information System




                                                  13
Efforts to Prevent Accidents, Injuries,                                                             HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)


                   APPENDIX B. SCOPE AND METHODOLOGY
Our performance cluster selections were based on the lowest and highest combined OSHA injury and
illness, and accident frequency rates from FY 200223 through accounting period24 8 in FY 2003.25 The
Salt Lake City Performance Cluster average total OSHA injury and illness and average total accident
frequency rates were 8.8 percent and 23.8 percent, respectively. The Mid-America average total
OSHA injury and illness and accident frequency rates were 5.4 percent and 15.8 percent,
respectively. The average total accident frequency rate of 15.8 percent in the Mid-America
Performance Cluster meant that out of every 100 employees, an average of 15.8 had an accident for
that period.

We selected three facilities at each performance cluster based on size and type (airport mail center,
processing and distribution center, and main post office). The Mid-America facilities we visited were
the Kansas City, the Missouri Processing and Distribution Center, the airport mail center, and the
Independence, Missouri Post Office. The Salt Lake City facilities we visited were the Salt Lake City
Processing and Distribution Center, the Auxiliary Service Facility, and the West Valley Branch.

To accomplish our objectives, we reviewed applicable federal laws and Postal Service and OSHA
policies and procedures related to accident and injury prevention.

To verify whether the number of accidents and injuries was declining as a result of corrections to
unsafe working conditions and practices, we obtained data by accident category and code (slips, trips
and falls, lifting, dog bites, repetitive motion, striking against, struck by objects, and motor vehicles)
for each performance cluster and facility visited. In addition, we obtained accident numbers and
accident frequency rate data from the Postal Service WebEIS for FYs 2002 and 2003. We also
obtained from RMRS the accident frequency rates and OSHA injury and illness rates for FY 2002,
and the first eight accounting periods in FY 2003. We reviewed both WebEIS and RMRS data to
determine whether downward trends indicated a reduction in accidents, injuries, and illnesses.

To determine whether corrective actions and prevention initiatives were made in a timely manner to
reduce the number of accidents, injuries, and illnesses, we reviewed Postal Service policy to learn
whether a national or other standard policy existed that addressed how timely unsafe working
conditions and practices should be corrected. We reviewed documentation for corrective actions and
prevention initiatives implemented in FYs 2002 and 2003 for the Mid-America Performance Cluster,
and FY 2002 through accounting period 12 in FY 200326 for the Salt Lake City Performance Cluster.

To determine whether accident, injury, and illness data were accumulated and analyzed for
prevention initiatives, we analyzed accidents, injuries, training documents, and workplace inspection
data for sources and locations of accidents and jobs with high occurrences of accidents. We also
analyzed accident and injury trends to determine whether a pattern of accidents with common causes
could be identified in order to prevent future occurrences. We reviewed action plans and Program
Evaluation Guide data that were accumulated and analyzed for prevention initiatives from FYs 2002
and 2003.


23
   The FY 2002 period for the Postal Service began September 8, 2001, and ended September 6, 2002.
24
   An accounting period is defined as a four-week period that forms one-thirteenth of the Postal Service fiscal
year.
25
   The FY 2002 period for the Postal Service began September 8, 2001, and ended September 6, 2002. The first
eight accounting periods in FY 2003, began September 7, 2002, and ended April 18, 2003. The FY 2003 period
for the Postal Service began September 7, 2002, and ended September 5, 2003. However, the Postal Service
transitioned its financial reporting system from accounting periods to monthly reporting periods on October 1,
2003. The transition period began September 6, 2003, and ended September 30, 2003.
26
   The first 12 accounting periods for FY 2003 began September 7, 2002, and ended August 8, 2003.



                                                      14
Efforts to Prevent Accidents, Injuries,                                                         HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)
To determine whether processes used within the various functional areas facilitated accurate
reporting of accidents, injuries, and illnesses, we interviewed human resources, safety and health
program personnel, and management at the area, performance cluster, and facility levels. We
obtained information related to accident prevention such as resources, training, accident and hazard
reporting, safety talks, and internal controls. In addition, we selected a statistical sample of accidents,
injuries, and illnesses entered into HRIS for FY 2002 and the first 12 accounting periods in FY 2003
for the Salt Lake City Performance Cluster, and FYs 2002 and 2003 for the Mid-America Performance
Cluster. We reviewed a sample of accident report forms for accuracy and completeness and
reviewed a sample of accidents from HRIS to determine whether the information on the forms was
entered accurately. (See Appendices C and D for a discussion of the sampling and projection
methodologies used.)

This audit was conducted from May 2003 through July 2004, in accordance with generally accepted
government auditing standards and included such tests of internal controls as were considered
necessary under the circumstances. We discussed our conclusions and observations with
appropriate management officials and included their comments, where appropriate. We believe the
computer-generated data were sufficiently reliable to support the opinions, conclusions, and
recommendations in this report.




                                                    15
Efforts to Prevent Accidents, Injuries,                                                              HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)


                                             APPENDIX C

      STATISTICAL SAMPLING AND PROJECTIONS FOR REVIEW OF 

         ACCIDENT REPORTING PROCESSES IN MID-AMERICA 

                     PERFORMANCE CLUSTER

Purpose of the Sampling

One of the objectives of this audit was to assess the accuracy and completeness of the accident data
in the HRIS. In support of this objective, the audit team employed a stratified random sample of
accidents listed in the database. The sample design allows statistical projection of the number of
discrepancies between the database and the accident report forms on file. Existence of the
appropriate supporting forms was also tested using the sample.

Definition of the Audit Universe

The team defined the audit universe as the Mid-America Customer Service District; the Kansas City,
Missouri Processing and Distribution Center; and the post offices in Missouri.27 The audit universe of
accidents for these locations consisted of 2,195 accidents, according to the HRIS database, in
FYs 2002 and 2003. The universe was obtained on-site by requesting printed HRIS data from the
safety manager responsible for the accident and injury prevention program.

Sample Design and Modifications

The audit universe was stratified into six strata based on location and fiscal year. Because the file
structure at each location was different, we planned separate sample designs within each stratum.
We selected independent interval samples of accident report forms as described below. Random
starting points were selected using the “randbetween” function in Microsoft Excel28 to assign random
numbers to the individuals on the universe listing.

                                                                                                    Sample
                                                             Population Size     Sample Size          Size
Stratum                  Location                   FY         (Accidents)        (Planned)         (Actual)
      1      Processing and Distribution Center    2003                   290               36              42
      2      Processing and Distribution Center    2002                   216               27              28
      3                 Post Office                2003                   234               29              31
      4                 Post Office                2002                   239               30              31
      5              Customer Service              2003                   587               29              33
      6              Customer Service              2002                   629               31              32
     Total                                                              2,195              182            197




27
 The Mid-America Post Office includes the airport mail center and the Independence, Missouri Post Office.
28
 Microsoft Excel is a spreadsheet program from the Microsoft Office suite of productivity tools for Windows and
Macintosh.



                                                      16
Efforts to Prevent Accidents, Injuries, 	                                                     HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)
To test the completeness and accuracy of the HRIS database, we tested nine attributes:

    •	   Did the pay location on the accident report form agree with the database?
    •	   Did the labor distribution code and functional operations number on the accident report form
         agree with the database?
    •	   Did the activity code on the accident report form agree with the database?
    •	   Did the type-of-accident code on the accident report form agree with the database?
    •	   Did the accident-result code on the accident report form agree with the database?
    •	   Did the work-location code on the accident report form agree with the database?
    •	   Did the nature-of-injury code on the accident report form agree with the database?
    •	   Did the injured body part code on the accident report form agree with the database?
    •	   Did the accident number on the accident report form agree with the database?

For the completeness of the accident report forms, we tested two additional attributes:

    •	   Was the preventive action code on the accident report form?
    •	   Was the preventive action on the accident report form?

Statistical Projections of the Sample Data

For analysis of the sample results, we considered the interval sampling methodology to be equivalent
to random sampling. As described in Chapter 7 of Elementary Survey Sampling, Scheaffer,
Mendenhall, and Ott, c.1990, a systematic sample (also called an interval sample or skip-step
sample) is equivalent to a random sample if the order of the items in the population is random relative
to, or is unrelated to, the occurrence of the factor being investigated. We considered that to be the
case in this review.

For projection of the number of errors for each attribute, we observed that the sampled items
contained very low error rates. Because of the extremely low occurrence rates, we were not able to
use the normal approximation to the binomial to calculate occurrence limits. Instead, we analyzed the
upper occurrence limits for each sample using as a basis the cumulative binomial methodology, as
used in past General Accounting Office Financial Audit Manual work, to generate the table “Statistical
Sampling Results Evaluation Table for Compliance Tests.” We used a 5 percent risk of overreliance
(beta risk).

Results

All projections were made to the audit universe of 2,195 accidents, as described in the definition of
the audit universe.

1. Did the pay location on the accident report form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
93 pay locations on the accident report forms (4.23 percent) disagreed with the database. The point
estimate is that 8 pay locations on the accident report forms (0.35 percent) disagreed with the
database.

2. Did the labor distribution code and functional operations number on the accident report
form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
93 labor distribution codes and functional operations numbers on the accident report forms
(4.23 percent) disagreed with the database. The point estimate is that 8 labor distribution codes and
functional operations numbers on the accident report forms (0.35 percent) disagreed with the
database.




                                                   17
Efforts to Prevent Accidents, Injuries,                                                    HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)
3. Did the activity code on the accident report forms agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
102 activity codes on the accident report forms (4.63 percent) disagreed with the database. The point
estimate is that 15 activity codes on the accident report forms (0.70 percent) disagreed with the
database.

4. Did the type-of-accident code on the accident report forms agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
84 type-of-accident codes on the accident report forms (3.83 percent) disagreed with the database.
The point estimate is that no type-of-accident codes on the accident report forms (0 percent)
disagreed with the database.

5. Did the accident-result code on the accident report forms agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
93 accident-result codes on the accident report forms (4.22 percent) disagreed with the database.
The point estimate is that 8 accident-result codes on the accident report forms (0.34 percent)
disagreed with the database.

6. Did the work-location code on the accident report forms agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
93 work-location codes on the accident report forms (4.22 percent) disagreed with the database. The
point estimate is that 8 work-location codes on the accident report forms (0.34 percent) disagreed
with the database.

7. Did the nature-of-injury code on the accident report form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
110 nature-of-injury codes on the accident report forms (5.01 percent) disagreed with the database.
The point estimate is that 23 nature-of-injury codes on the accident report forms (1.04 percent)
disagreed with the database.

8. Did the injured body part code on the accident report forms agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
110 injured body part codes on the accident report forms (5.01 percent) disagreed with the database.
The point estimate is that 23 injured body part codes on the accident report forms (1.04 percent)
disagreed with the database.

9. Did the accident number on the accident report forms agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
101 accident numbers on the accident report forms (4.61 percent) disagreed with the database. The
point estimate is that 15 accident numbers on the accident report forms (0.69 percent) disagreed with
the database.

10. Was the preventive action code on the accident report form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
84 accident report forms (3.83 percent) were missing the preventive action code. The point estimate
is that no accident report forms (0 percent) were missing the preventive action code.

11. Was the preventive action on the accident report form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
198 accident report forms (3.83 percent) were missing the preventive action. The point estimate is
that no accident report forms (0 percent) were missing the preventive action.




                                                  18
Efforts to Prevent Accidents, Injuries,                                                         HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)

                                              APPENDIX D

STATISTICAL SAMPLING FOR REVIEW OF ACCIDENT REPORTING
  PROCESSES IN SALT LAKE CITY PERFORMANCE CLUSTER
Purpose of the Sampling

One of the objectives of this audit was to assess the accuracy and completeness of the accident data
in the HRIS. In support of this objective, the audit team employed a stratified two-stage random
sample. Existence of the appropriate supporting forms was also tested using the sample.

Definition of the Audit Universe

The team defined the audit universe as the Salt Lake City Processing and Distribution Center, the
Provo Processing and Distribution Center, the Auxiliary Service Facility, and the Salt Lake City
Customer Service District Office. The audit universe of accidents for these locations consisted of
1,633 accidents, according to the HRIS database, for all of FY 2002 through accounting period 12 of
FY 2003. The accident report forms on file were stored in folders by installation and fiscal year. The
universe was obtained on-site by requesting printed HRIS data from the safety manager responsible
for the accident and injury prevention program.

Sample Design and Modifications

Because the files were located at several sites and stored by fiscal year, we stratified the audit
universe into eight strata based on location and fiscal year. Because the file structure at each
location was different, we planned separate sample designs within each stratum. For strata
one through six, we selected independent interval samples of accident reports as described below.
Random starts were selected using the “randbetween” function in Microsoft Excel to assign random
numbers to the individuals on the universe listing.

                                                                       Population Size   Sample Size
    Stratum                     Location                      FY         (Accidents)       (Actual)
        1                Auxiliary Service Facility           2002                  12              12
        2                Auxiliary Service Facility           2003                   6               6
        3                       Post Office                   2002                  72              25
        4                       Post Office                   2003                  59              25
        5           Processing and Distribution Center        2002                 100              25
        6           Processing and Distribution Center        2003                  73              24
      Total                                                                        322            117

For strata seven and eight, Customer Service offices, for FYs 2002 and 2003, we selected a
two-stage cluster sample, with facilities selected at the first stage and accident report forms selected
at the second stage.

              Stratum           Location                 FY     Population Size   Sample Size
                7           Customer Service          2002                  782            51
                8           Customer Service          2003                  529            99
               Total                                                      1,311           150




                                                      19
Efforts to Prevent Accidents, Injuries, 	                                                     HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)
As shown in both tables above, the total population size (accident report forms), or the audit universe
was 1,633 (322+1,311=1,633). Additionally, the total number of accident report forms sampled was
267 (117+150=267).

Selection of individual accident report forms within a stratum was accomplished on-site by the audit
team, using interval sampling defined as follows:
    •	 Per folder:
             o	 If fewer than 10 accident report forms, check all forms.
             o	 If 10 to 20, check every other form starting with the first form.
             o	 If 20 to 49, check every third form starting with the second form.
             o	 If 50 to 99, check every fifth form starting with the fourth form.
             o	 If more than 99, start with the seventh form.
                      For 100 to 199, divide by 10 and use that number as the interval.
                      For 200 to 299, divide by 20 and use that number as the interval.
                      For 300 to 399, divide by 30 and use that number as the interval.

To test the completeness and accuracy of the HRIS database, we tested nine attributes:

     •	   Did the accident number shown on the accident report form agree with the database?
     •	   Did the pay location on the accident report form agree with the database?
     •	   Did the labor distribution code and functional operations number on the accident report form
          agree with the database?
     •	   Did the activity code on the accident report form agree with the database?
     •	   Did the type-of-accident code on the accident report form agree with the database?
     •	   Did the accident-result code on the accident report form agree with the database?
     •	   Did the work-location code on the accident report form agree with the database?
     •	   Did the nature-of-injury code on the accident report form agree with the database?
     •	   Did the injured body part code on the accident report form agree with the database?

For the completeness of the accident report forms, we tested two additional attributes:

     •	   Was the preventive action code on the accident report form?
     •	   Was the preventive action on the accident report form?

Additional Analysis and Results

Although we cannot make a formal statistical projection, we believe the low error rates observed in
the records reviewed supported the audit team’s opinion that there is little likelihood of a major
problem with the data in the files or in the database. The audit team observed the following:

•	   10 of the 267 accident report forms reviewed indicated the accident numbers disagreed with the
     database.

•	   7 of the 267 accident report forms reviewed indicated the pay locations disagreed with the
     database.

•	   13 of the 267 accident report forms reviewed indicated the labor distribution codes and functional
     operations numbers disagreed with the database.

•	   24 of the 267 accident report forms reviewed indicated the activity codes disagreed with the
     database.

•	   3 of the 267 accident report forms reviewed indicated the accident type codes disagreed with the
     database.


                                                   20
Efforts to Prevent Accidents, Injuries,                                                      HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)
•	   1 of the 267 accident report forms reviewed indicated the accident-result code disagreed with the
     database.

•	   1 of the 267 accident report forms reviewed indicated the work-location code disagreed with the
     database.

•	   5 of the 267 accident report forms reviewed indicated the nature-of-injury codes disagreed with
     the database.

•	   6 of the 267 accident report forms reviewed contained injured body part codes that disagreed with
     the database.

•	   3 of the 267 accident report forms reviewed did not contain the preventive action code on the
     forms.

•	   2 of the 267 accident report forms reviewed did not contain the preventive action on the forms.




                                                   21
Efforts to Prevent Accidents, Injuries,                HM-AR-04-010
 and Illnesses in the Mid-America and Salt Lake City
 Performance Clusters (Western Area)


                 APPENDIX E. MANAGEMENT’S COMMENTS 





                                                  22
